CERTIFICATE OF WORD COUNT
NO. 20-1254
Padma Rao,
Petitioner,
v.
Midland Trust Company,
Respondent.
___________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. That, as required by Supreme Court Rule 33.1(h), I certify that the MIDLAND TRUST
COMPANY BRIEF IN OPPOSITION contains 8927 words, including the parts of the brief that are required
or exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.

Lucas DeDeus
April 8, 2021

SCP Tracking: Singler-200 West Monroe St., Suite 750-Cover Orange

